<html>
<title> - STRENGTHENING TRAVEL REIMBURSEMENT PROCEDURES FOR ARMY NATIONAL GUARD SOLDIERS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 STRENGTHENING TRAVEL REIMBURSEMENT PROCEDURES FOR ARMY NATIONAL GUARD 
                                SOLDIERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      FINANCE, AND ACCOUNTABILITY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2005

                               __________

                           Serial No. 109-23

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-297                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
                   David Marin, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Government Management, Finance, and Accountability

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
VIRGINIA FOXX, North Carolina        EDOLPHUS TOWNS, New York
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
GIL GUTKNECHT, Minnesota             PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
JOHN J. DUNCAN, Jr., Tennessee

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Mike Hettinger, Staff Director
               Tabetha Mueller, Professional Staff Member
                         Nathaniel Berry, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2005...................................     1
Statement of:
    Shine, Patrick T., Director of Military and Civilian Pay 
      Services, Defense Finance and Accounting Service; John 
      Argodale, Deputy Assistant Secretary for Financial 
      Operations, Office of the Assistant Secretary for Financial 
      Management and Comptroller; Roy Wallace, Director of Plans 
      and Resources, Department of the Army; and Gregory D. Kutz, 
      Director of Financial Management and Assurance, Government 
      Accountability Office......................................     5
        Argodale, John...........................................    12
        Kutz, Gregory D..........................................    25
        Shine, Patrick T.........................................     5
        Wallace, Roy.............................................    21
Letters, statements, etc., submitted for the record by:
    Argodale, John, Deputy Assistant Secretary for Financial 
      Operations, Office of the Assistant Secretary for Financial 
      Management and Comptroller, prepared statement of..........    14
    Kutz, Gregory D., Director of Financial Management and 
      Assurance, Government Accountability Office, prepared 
      statement of...............................................    27
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........     3
    Shine, Patrick T., Director of Military and Civilian Pay 
      Services, Defense Finance and Accounting Service, prepared 
      statement of...............................................     8
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    81
    Wallace, Roy, Director of Plans and Resources, Department of 
      the Army, prepared statement of............................    22

 
 STRENGTHENING TRAVEL REIMBURSEMENT PROCEDURES FOR ARMY NATIONAL GUARD 
                                SOLDIERS

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                  House of Representatives,
Subcommittee on Government Management, Finance, and 
                                    Accountability,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2247, Rayburn House Office Building, Hon. Todd R. Platts 
(chairman of the subcommittee) presiding.
    Present: Representatives Platts and Towns.
    Staff present: Mike Hettinger, staff director; Dan Daly, 
counsel; Tabetha Mueller, professional staff member; Jessica 
Friedman, legislative assistant; Nathaniel Berry, clerk; Adam 
Bordes, minority professional staff member; and Teresa Coufal, 
minority assistant clerk.
    Mr. Platts. Good afternoon. This hearing of the Government 
Reform Subcommittee on Government Management, Finance, and 
Accountability will come to order.
    As is typical with a session day, we are all going in a 
million and one directions. Congressman Towns is on his way and 
will be joining us shortly. We believe we may have floor votes 
in about 20 to 25 minutes. My hope is that we will get through 
opening statements of myself and Mr. Towns and our panelists, 
and I can race over for the last second of the first vote. We 
have about a 20-minute recess and come back and to questions 
and answers. We will see if that works out as we get started. 
We will do our best to not hold our witnesses any longer in 
limbo than we have to.
    In response to the terrorist attacks of September 11, 2001, 
the Army National Guard began to mobilize soldiers in support 
of the global war on terror. As part of Operations Noble Eagle 
and Enduring Freedom, these soldiers fought the Taliban and al 
Qaeda throughout Asia and Africa. They continue to guard 
prisoners at Guantanamo Bay, Cuba and perform support missions 
here in the United States.
    Similarly, National Guard soldiers served on the front 
lines in Iraq and are now assisting in peacekeeping and 
reconstruction operations in Iraq under Operation Iraqi 
Freedom. This is the largest mobilization of Guard troops since 
World War II. Over the past 2 years, the House Government 
Reform Committee, the Government Accountability Office and the 
Department of Defense have worked together to ensure that this 
large-scale deployment goes as smoothly as possible.
    In a series of hearings supplemented by ongoing quarterly 
briefings, civilian and military personnel have worked closely 
with committee staff and GAO auditors to bring improvements to 
the systems and processes that serve our troops. Among the 
issues that have been addressed are errors in soldiers' pay, 
ineffective tracking of supplies, and problems with treatment 
of injured Guard and Reserve soldiers.
    This hearing will look at the process for reimbursing Guard 
soldiers for their travel and per diem expenses. It is an 
important part of the ongoing productive collaboration that has 
resulted in a number of improvements. Specifically, the 
subcommittee will discuss the findings of GAO's recent case 
studies on travel reimbursement procedures for National Guard 
troops. This report, which is being released today, found that 
a number of deployed National Guard soldiers experienced 
problems receiving appropriate travel and per diem 
reimbursement.
    In light of our heavy reliance on Guard and Reserve troops 
in fighting the global war on terror, it is imperative that 
travel reimbursement and other management issues be resolved 
and that our uniformed personnel be informed of the extensive 
work that is being done and continues to be done to address the 
problems they have incurred.
    I would like to thank our witnesses not only for being here 
today, but for working with this committee and the minority and 
majority staff over the past 2 years. First, we will hear from 
Mr. Pat Shine, the Director of Military and Civilian Pay at the 
Defense Finance and Accounting Service. Mr. Shine, I appreciate 
your briefing my staff in the recent year on the challenges 
before DFAS and your efforts to meet those challenges, and also 
your specific help as we have brought some constituent cases to 
your attention regarding Guard who have been mobilized and your 
staff's quick response in helping to address those problems.
    Mr. Shine. We were glad to help, sir.
    Mr. Platts. We are also going to hear from Mr. John 
Argodale, Deputy Assistant Secretary for Financial Operations, 
and Mr. Roy Wallace, Director of Plans and Resources for the 
Department of the Army. Mr. Greg Kutz, Director of Financial 
Management and Insurance at the Government Accountability 
Office will conclude the panel. Greg, you played a key role in 
the past year with this committee. We thank you as well, in 
addition to our other panelists.
    We appreciate all of your testimonies, your written 
testimonies you have already submitted, as well as your oral 
testimonies that you will be giving here today. I was thinking 
Mr. Towns would be here by the time I concluded my statement. 
He is not. We will break if need be when he arrives for his 
statement, or he may choose to submit that for the record.
    Perfect timing, Ed. Do you want to make a statement?
    [The prepared statement of Hon. Todd Russell Platts 
follows:]

[GRAPHIC] [TIFF OMITTED] T1297.001

    Mr. Towns. Yes.
    Mr. Platts. We are joined by Mr. Towns, the ranking member 
from New York, and the Chair would recognize Mr. Towns for the 
purpose of making an opening statement.
    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing.
    It is timely for our committee to examine this issue, as 
the number of soldiers experiencing financial burden due to 
lack of travel reimbursement policies continues to rise. Let me 
also thank our witnesses for their testimony in advance, 
especially those of you who have ably served our Nation with 
pride and distinction.
    The issue of inadequate management at the Department of 
Defense is not foreign to our committee. As we have continually 
worked to improve the internal control structure and accounting 
problems demonstrated by the agency over the years. Like our 
previous work in examining the problems of associated with the 
pay and benefit policies of our soldiers and reservists, we are 
now beginning to identify the extensive deficiencies in the 
travel reimbursement process for our Army Guardsmen.
    This committee, at a critical time, as many of these men 
and women are being called in increasing numbers to serve our 
Nation's interest abroad. Since 2001, the Army Guard has been 
asked to do more for us than at any other time in recent 
memory. According to the GAO, there were more than 186,000 Army 
Guard soldiers mobilized from September 2001 through September 
2004, accounting for approximately 40 percent of the 111,800 
reservists mobilized during this time period.
    In my home State of New York alone, over 2,900 Army 
Guardsmen are presently mobilized and serving in various 
capacities. The problems detailed in the report before us today 
are similar to previously defined deficiencies at DOD stemming 
from continued weaknesses in managerial controls, inefficient 
processes, and human capital constraints. Of the 10 Guard units 
examined by GAO, a majority of the soldiers in each unit 
experienced problems relating to reimbursements for meal 
expenses.
    Specific cases experienced delays for authorized 
reimbursement in excess of a year. Other soldiers cited 
inaccuracies or delays in the voucher authorization process, 
requiring many soldiers to shoulder the financial burden of 
deployment until such issues were resolved. Adding to their 
plight, many soldiers were denied interest and late fees on 
delinquent reimbursement as required under current law.
    I believe, Mr. Chairman, these practices will prove to be a 
long-term detriment to retention and recruiting efforts for the 
Army Guard if they are not swiftly remedied. As I said before 
our committee last July, this issue before us is not relevant 
to our military mission or overseas objectives. It is, however, 
relevant to whether the U.S. Government is keeping its word to 
the men and women who honorably serve our Nation.
    Once again, I believe it is disingenuous for us to tell the 
American people that our armed services are well prepared when 
we cannot even guarantee that our soldiers will receive their 
pay and benefits in a timely manner. It is difficult enough for 
the families of guardsmen serving away without having to endure 
the undue economic hardship experienced by many individuals. 
Hopefully, our efforts today will be productive in finding 
solutions to such problems.
    Again, Mr. Chairman, I thank you for holding this hearing. 
I also would like to thank the witnesses for coming. Thank you 
so much.
    I yield back.
    Mr. Platts. Thank you, Mr. Towns. Your statement, one of 
the more important parts of it is the fact that while our 
soldiers who were mobilized and engaged in helping to win the 
war on terror, the fact that they were performing their 
missions with great success and dedication, unimpacted by the 
challenges they are facing on their reimbursements and things, 
that was put aside while they did their jobs, is a testament to 
our soldiers. I appreciate your reaffirming that, how grateful 
we are to the work of these soldiers that have been mobilized.
    We will move to our panelists. It is the practice of the 
subcommittee if we could ask all of our witnesses to stand and 
be sworn in. Anyone who would be advising you or giving counsel 
as part of your testimony, if they would like to join in taking 
the oath as well. If you would raise your right hands?
    [Witnesses sworn.]
    Mr. Platts. The clerk will affirm that the witnesses all 
answered in the affirmative. We again appreciate your 
testimony. It sounds like the vote board is just now starting, 
which means we have about 20 minutes before the first vote. I 
need to sprint over there. Ed is a little younger than me so he 
does not need as much time as I do. [Laughter.]
    I think what we will try to do is do our opening statements 
and maybe I will get through all four of our opening 
statements, or three of them. It would be a good break point if 
we can get through all four, and then we will come back and do 
questions and answers at the conclusion of the vote.
    So Mr. Shine, if you would like to begin, we will get right 
to your statement.
    Mr. Shine. Yes, sir.

   STATEMENTS OF PATRICK T. SHINE, DIRECTOR OF MILITARY AND 
CIVILIAN PAY SERVICES, DEFENSE FINANCE AND ACCOUNTING SERVICE; 
    JOHN ARGODALE, DEPUTY ASSISTANT SECRETARY FOR FINANCIAL 
  OPERATIONS, OFFICE OF THE ASSISTANT SECRETARY FOR FINANCIAL 
MANAGEMENT AND COMPTROLLER; ROY WALLACE, DIRECTOR OF PLANS AND 
    RESOURCES, DEPARTMENT OF THE ARMY; AND GREGORY D. KUTZ, 
  DIRECTOR OF FINANCIAL MANAGEMENT AND ASSURANCE, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

                 STATEMENT OF PATRICK T. SHINE

    Mr. Shine. Chairman Platts, distinguished members of the 
subcommittee, my name is Pat Shine. I am the Director of the 
Military and Civilian Pay Service's business lines for the 
Defense Finance and Accounting Service [DFAS].
    I thank you for this opportunity to discuss our role in the 
travel reimbursement payment process to mobilized soldiers. 
DFAS shares the responsibility to provide timely and accurate 
travel reimbursement payments and customer service with the 
active and reserve components of the military departments. DFAS 
has the primary responsibility of processing travel 
reimbursements to the mobilized Army National Guard, U.S. Army 
Reserve and active duty Army forces.
    We accomplish this mission by using a combination of 
military personnel, Department of Defense civilians and 
contract employees. For the fiscal year that ended September 
30, 2004, we employed 33 military, 286 civilians, and 283 
contract employees. We processed over 2.2 million travel 
reimbursement claims; 380,000 of these claims were specifically 
related to the mobilized Guard and Reserve forces which is the 
focus of my testimony today.
    Normally, Guard and Reserve soldiers are sent directly to 
an overseas combat theater of operation, or used at various 
stateside locations as backfill behind active component 
soldiers who are sent to the combat theater. Soldiers deployed 
to the combat area where government lodging and meals are 
provided are entitled to a flat rate of $3.50 per day. Soldiers 
assigned to stateside locations on a temporary status are 
entitled to full per diem to cover allowable travel expenses, 
including lodging and meals if adequate government quarters and 
meals are not available.
    Individuals in the combat area file a voucher for 
reimbursement of their travel expenses upon completion of their 
active duty tour. Mobilized soldiers who remain stateside not 
near their home are eligible to file accruals every 30 days in 
order to pay bills that they have incurred. During the summer 
of 2003, we witnessed a dramatic increase in the number of 
mobilized Guard and Reserve soldiers and consequently an 
increase in the number of travel claims.
    This spike in travel claims temporarily overwhelmed our 
DFAS staff. To address this issue, we partnered with the U.S. 
Army and secured additional funding to hire contractor 
personnel. In addition, we obtained the help of the U.S. Army 
Reserve and Army National Guard finance units to assist us in 
processing claims and reducing the backlog.
    Within 30 days, the turnaround time decreased to the DFAS 
standard of 8 business days. It has remained in that range 
since. While our processing time has been at an acceptable 
range for the past 18 months, there are two other issues that 
the Government Accountability Office draft report, Army 
National Guard Inefficient Air-Prone Process Results in Travel 
Reimbursement Problems for Mobilized Soldiers, has highlighted.
    The first area the GAO review noted that required immediate 
attention was the payment of interest for interim vouchers. We 
were not paying interest on accrual claims when the processing 
time exceeded 30 days as required by the Travel and 
Transportation Reform Act. In the course of GAO's review, they 
brought this to our attention and we immediately changed our 
procedures to comply with the act.
    The other significant area relates to the number of claims 
returned to service members because they were not properly 
completed and documented in order for us to make payment. These 
incomplete claims are returned for various reasons, including 
missing travel orders, missing receipts, missing signatures or 
incomplete or illegible itineraries. We have partnered with the 
leadership of the Guard and Reserve in providing trend analysis 
data on these types of problems occurring so the commands can 
focus their corrective action.
    We also have provided additional education on the travel 
reimbursement process to travelers. Specific examples of 
actions we have taken include, we have developed and 
distributed handouts at mobilization and demobilizationsites 
that explain how to prepare the travel reimbursement claim and 
what supporting documentation is needed. This information is 
also available on both the DFAS and Army Knowledge Online Web 
sites. We partnered with the Army National Guard in developing 
a detailed information packet entitled the Citizen Soldier's 
Guide to Mobilization Finance that explains the various 
authorized entitlements while in a temporary change of station 
status.
    We have also visited select mobilization and 
demobilizationsites to provide hands-on instructions on how to 
complete the travel reimbursement claims. As a result of these 
actions, we have been partially successful in correcting 
problems associated with return claims. The return or rejected 
rate is now around 12 percent, down from the previous rate that 
was 25 percent or higher. We continue to work with the 
leadership of the Army, the Guard and the Reserve and specific 
units to drive this rate down even further.
    The Department's ultimate solution for travel pay 
reimbursement is the Defense Travel System [DTS]. DTS is a Web-
based end-to-end process that will ease the administrative 
burden on the traveler and simplify many of the complex 
entitlement rules in the manual paper-intensive process 
currently used today. DTS will be available to support 
mobilized Guard and Reserve soldiers in the Army by the end of 
fiscal year 2006.
    Mr. Chairman, DFAS remains fully committed to our 
continuing partnership with all service components in improving 
the accuracy and timeliness of travel reimbursement services. 
We will remain steadfast in taking aggressive action and we 
will look forward to reporting our results to the GAO and to 
the committee.
    Mr. Chairman, this concludes my formal remarks and I will 
be happy to answer any questions the committee may have. Thank 
you.
    [The prepared statement of Mr. Shine follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.002
    
    [GRAPHIC] [TIFF OMITTED] T1297.003
    
    [GRAPHIC] [TIFF OMITTED] T1297.004
    
    [GRAPHIC] [TIFF OMITTED] T1297.005
    
    Mr. Platts. Thank you, Mr. Shine. Again, thanks for you and 
your staff on the front lines of this issue and meeting those 
challenges of the spike in mobilization and trying to quickly 
respond to them. We will look forward to getting into some of 
your actions in more detail in the question and answer.
    Mr. Shine. Thank you.
    Mr. Platts. Secretary Argodale.

                   STATEMENT OF JOHN ARGODALE

    Mr. Argodale. Chairman Platts, Mr. Towns, distinguished 
members of the subcommittee, thank you very much for the 
opportunity to appear before you this afternoon to discuss 
travel reimbursement of the Army's mobilized National Guard 
soldiers.
    My name is John J. Argodale. I am the Deputy Assistant 
Secretary for Financial Operations. The motto of the Army 
Finance Corps is service to soldiers. I, along with my civilian 
and military counterparts, take great pride in providing 
service to soldiers, particularly during these times of 
unprecedented mobilization. Secretary Harvey's expectation is 
perfection in all matters impacting soldier pay. We are working 
to make the Secretary's expectations a reality.
    Since the onset of the global war on terrorism, the Army 
has executed large-scale mobilizations and demobilizations on a 
scale not experienced since World War II. The Army mobilized 
over 342,000 National Guard and Reserve soldiers, demobilized 
186,737 soldiers, and as of March 3, 2005, 155,283 Army 
National Guard and Reserve soldiers are mobilized for active 
duty.
    The magnitude of the mobilization and consequent travel 
claims created a significant strain on the Army's ability to 
ensure mobilized soldiers receive travel reimbursements in the 
correct amount and on time. We simply needed to improve our 
performance.
    Service to soldiers is the Army Finance Corps' ultimate 
objective. To provide the travel reimbursement service our 
mobilized Guard and Reserve soldiers deserve, we applied 
significant people and money. We mobilized more than 80 
soldiers from the Army National Guard and Reserve finance units 
to assist DFAS in processing travel claims. We paid DFAS $17 
million between fiscal years 2002 and 2004 to hire additional 
people needed to process travel claims.
    These efforts enabled DFAS to significantly increase the 
number of personnel processing contingency operations travel 
claims. For example, in October 2001, there were only 35 people 
processing contingency operation travel claims. In July 2003, 
the number of people processing contingency operation travel 
claims grew to 141, including 83 mobilized Reserve component 
soldiers. Currently, there are approximately 320 people 
processing contingency operation travel claims.
    The increased personnel enabled DFAS to stabilize travel 
claim processing. Over the past 18 months, DFAS reports that 
travel claims are processed within 8 business days of receiving 
a claim for reimbursement.
    In addition to people and money, we have made several 
process improvements designed to correct deficiencies in 
processing travel claims and improve our service to soldiers. 
To correct confusion on meals reimbursement, all mobilization 
orders now state that soldiers will not be charged for meals 
when billeted on government facilities. In situations where 
soldiers are billeted off-post, reimbursement is authorized for 
meals consumed during non-duty hours.
    To improve service to soldiers, claims with missing 
documentation, such as the mobilization order, are no longer 
rejected back to the soldier for resolution. Instead, the 
claims are held and the missing orders obtained from a central 
location. This improved service resulted in the expedited 
payment of nearly 17,000 claims and a reduction in rejected 
travel claims returned to soldiers, from over 20 percent to a 
range of 10 percent to 12 percent of total claims received.
    The Army receives weekly metrics from DFAS on all 
contingency travel operation claims. The metrics disclose the 
total claims received, total processed, processing time, total 
claims rejected, and reasons for rejection. We have learned 
that most claims are rejected because of missing signatures and 
incomplete itineraries. These metrics are a valuable tool for 
use in educational materials and information designed to 
improve the travel reimbursement process.
    In summary, we are improving our service to soldiers. 
Travel reimbursements are processed within 8 business days of 
receipt of the claim by DFAS. We reduced rejected claims to a 
range of 10 percent to 12 percent of total claims received. 
Changes to the process for rejecting travel reimbursements 
expedited the payment of about 17,000 claims. Metrics are 
monitored weekly and used to inform soldiers of common mistakes 
made in submitting travel claims.
    Although we have made progress, we must continue to pursue 
additional process improvements in order to meet Secretary 
Harvey's goal of perfection in the delivery of soldier pay. To 
solve larger problems such as integrating personnel and payroll 
actions and automating travel claims and reimbursements, the 
Army needs DOD-driven solutions such as the Defense Integrated 
Military Human Resource System and the Defense Travel System to 
come online soon.
    Service to soldiers is my job and the job of my civilian 
and military colleagues. I appreciate the subcommittee's 
interest in this issue and look forward to continued 
collaboration with the subcommittee staff and the GAO to 
improve service to soldiers.
    Thank you.
    [The prepared statement of Mr. Argodale follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.006
    
    [GRAPHIC] [TIFF OMITTED] T1297.007
    
    [GRAPHIC] [TIFF OMITTED] T1297.008
    
    [GRAPHIC] [TIFF OMITTED] T1297.009
    
    [GRAPHIC] [TIFF OMITTED] T1297.010
    
    [GRAPHIC] [TIFF OMITTED] T1297.011
    
    [GRAPHIC] [TIFF OMITTED] T1297.012
    
    Mr. Platts. Thank you, Mr. Secretary. Given the heroic 
service of our men and women in uniform, and in this instance 
specifically folks in our Guard, the goal of perfection that 
Secretary Harvey has set is an appropriate one and it will take 
all of our collective efforts to achieve that. We certainly 
look forward to continuing to work with you.
    I think we will, Mr. Wallace at least get you in yet, and 
we may get Mr. Kutz in. We will see.

                    STATEMENT OF ROY WALLACE

    Mr. Wallace. Thank you, Mr. Chairman, Mr. Towns, members of 
the subcommittee. I would like to thank you all for taking such 
an acute interest in the welfare of our National Guard, Reserve 
and active component soldiers and for allowing me the 
opportunity to appear before you today.
    I have submitted the written statement for the record and I 
would like to make just a few brief comments, and then I will 
open for questions.
    My office is responsible for the policy formulation for 
travel and pay within the Department of the Army. However, this 
is a joint game and therefore we work diligently with the 
office of the Secretary of Defense and our sister services to 
ensure that the policies are universal and applied to all. In 
fact, the mobilized soldier is paid and travel requirements are 
exactly the same as the active soldier.
    In addition, we authored the personnel policy guidance, 
which is a voluminous instruction to the field which is 
distributed to all Army units and organizations. It is a living 
document that we have continued to adjust as things such as the 
GAO report that we are working today have come to light. The G-
1 is fully committed to working with the Office of the 
Secretary of Defense and DFAS to provide clear and concise 
guidance to the field.
    Thank you very much.
    [The prepared statement of Mr. Wallace follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.013
    
    [GRAPHIC] [TIFF OMITTED] T1297.014
    
    [GRAPHIC] [TIFF OMITTED] T1297.015
    
    Mr. Platts. Thank you, Mr. Wallace.
    Greg, we are going to try to get you in here, and then I 
will be running out, and then we will stand in recess for 
probably about 20 minutes, get my votes in, and then we will 
get back over.
    Mr. Kutz. OK.

                  STATEMENT OF GREGORY D. KUTZ

    Mr. Kutz. Thank you for the opportunity to discuss travel 
reimbursement problems for mobilized Army Guard soldiers. As 
you had mentioned, I previously testified on pay problems for 
Guard and Reserve soldiers, including those injured in the line 
of duty. Several weeks ago, we had that hearing.
    Our bottom line today, as you mentioned, is that soldiers 
have also experienced significant problems receiving timely and 
accurate travel reimbursements. My testimony has two parts. I 
will talk first about travel reimbursement problems and then 
briefly discuss DOD actions.
    First, we identified inaccurate, delayed and denied travel 
reimbursement for Army Guard soldiers. Our 10 case study units 
experienced a broad range of travel reimbursement problems. For 
example, for these 10 units, we identified over $1 million of 
delayed or disputed amounts for meals, some of which remain 
unpaid.
    Some of the examples of the issues that we found include 36 
soldiers from a Pennsylvania unit that filed identical 
vouchers, but were paid amounts ranging from zero to $1,700 
every month. One-hundred and seven soldiers from a Maryland MP 
unit were housed off-post and denied per diem authorization for 
meals. As a result, some of the meals were paid for out-of-
pocket by soldiers, while others rode bicycles or hiked over 3 
miles to the mess hall. And 32 soldiers from a Georgia MP unit 
incurred debts totaling over $200,000 when the per diem 
payments that they had already received were retroactively 
disallowed. Debt collections were started while these soldiers 
were deployed to Iraq, causing financial hardship for the 
soldiers and their families.
    In the last several weeks, we became aware of the potential 
for similar problems for injured Guard and Reserve soldiers. 
For example, we identified problems with active duty medical 
extension orders and confusion over injured reservists' 
entitlements to meals. As a result, many out-patient soldiers 
may have inappropriately paid for their own meals. Army 
officials have represented that they are looking into this 
matter.
    The root causes of these reimbursement problems relate to 
people, processes and automated system. For example, as the 
operational tempo increased after September 11, many 
installations did not have available on-post housing for Army 
Guard soldiers. As a result, soldiers were housed off-post in 
commercial hotels and apartments. This created novel situations 
that were not specifically addressed in the travel regulations.
    The current paper-intensive error-prone process was another 
major factor. Problems in assembling all of the paper necessary 
for a complete travel voucher package resulted in a reported 
85,000 vouchers being rejected and returned to soldiers in 
2004. This churning process added to delays and frustration for 
soldiers.
    Second, as was mentioned by the other witnesses, DOD has 
taken many actions to improve the situation. I will not repeat 
what those were in the interest of time here, but as was 
mentioned, they are also implementing the Defense Travel System 
to address longstanding problems, even those beyond Guard and 
Reserve soldiers. However, our view is that given that DTS has 
been underway for about 8 years and cannot currently be 
utilized by mobilized soldiers, we believe it is likely that 
the soldiers will have to live with the current system for the 
foreseeable future.
    In conclusion, the current reimbursement system was not 
designed to handle the increased operational tempo from the 
global war on terrorism. With a new system, in our view, likely 
years away, it is important that Army, DFAS and the National 
Guard continue their efforts to compensate for the problems 
with the current system. We look forward to continuing to work 
with this subcommittee and the other witnesses and their 
organizations to see that soldiers have the world-class travel 
reimbursement system that they deserve.
    That ends my statement. I will be happy to answer 
questions.
    [The prepared statement of Mr. Kutz follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.016
    
    [GRAPHIC] [TIFF OMITTED] T1297.017
    
    [GRAPHIC] [TIFF OMITTED] T1297.018
    
    [GRAPHIC] [TIFF OMITTED] T1297.019
    
    [GRAPHIC] [TIFF OMITTED] T1297.020
    
    [GRAPHIC] [TIFF OMITTED] T1297.021
    
    [GRAPHIC] [TIFF OMITTED] T1297.022
    
    [GRAPHIC] [TIFF OMITTED] T1297.023
    
    [GRAPHIC] [TIFF OMITTED] T1297.024
    
    [GRAPHIC] [TIFF OMITTED] T1297.025
    
    [GRAPHIC] [TIFF OMITTED] T1297.026
    
    [GRAPHIC] [TIFF OMITTED] T1297.027
    
    [GRAPHIC] [TIFF OMITTED] T1297.028
    
    [GRAPHIC] [TIFF OMITTED] T1297.029
    
    [GRAPHIC] [TIFF OMITTED] T1297.030
    
    [GRAPHIC] [TIFF OMITTED] T1297.031
    
    [GRAPHIC] [TIFF OMITTED] T1297.032
    
    [GRAPHIC] [TIFF OMITTED] T1297.033
    
    [GRAPHIC] [TIFF OMITTED] T1297.034
    
    [GRAPHIC] [TIFF OMITTED] T1297.035
    
    [GRAPHIC] [TIFF OMITTED] T1297.036
    
    [GRAPHIC] [TIFF OMITTED] T1297.037
    
    [GRAPHIC] [TIFF OMITTED] T1297.038
    
    [GRAPHIC] [TIFF OMITTED] T1297.039
    
    [GRAPHIC] [TIFF OMITTED] T1297.040
    
    [GRAPHIC] [TIFF OMITTED] T1297.041
    
    [GRAPHIC] [TIFF OMITTED] T1297.042
    
    [GRAPHIC] [TIFF OMITTED] T1297.043
    
    [GRAPHIC] [TIFF OMITTED] T1297.044
    
    [GRAPHIC] [TIFF OMITTED] T1297.045
    
    [GRAPHIC] [TIFF OMITTED] T1297.046
    
    [GRAPHIC] [TIFF OMITTED] T1297.047
    
    [GRAPHIC] [TIFF OMITTED] T1297.048
    
    [GRAPHIC] [TIFF OMITTED] T1297.049
    
    [GRAPHIC] [TIFF OMITTED] T1297.050
    
    Mr. Platts. Thank you, Mr. Kutz.
    We will stand in recess for about 20 minutes to the call of 
the Chair.
    [Recess.]
    Mr. Platts. We will reconvene the hearing. I apologize for 
the delay and appreciate your patience while we got the votes. 
The good thing is, that is our last series of recorded votes on 
the floor, so I should not have to run out again in the midst 
of our ongoing hearing.
    Again, I want to thank all four of you for your 
testimonies, and I will get into some more specifics. The way I 
understand the problems identified in the GAO report and the 
statements of our witnesses here today is that we all 
acknowledge some significant problems that have come up as we 
have experienced this tremendous mobilization, some of which 
were more troublesome than others. We have made some good 
headway in the right direction. We still have work to be done 
and we seem to have an idea of what that work is as we go 
forward.
    Where I would like to start is maybe with GAO, Mr. Kutz. 
You have identified 23 specific recommendations and in your 
testimony I believe 20 of those were agreed to and acted on by 
the Department, or 21, and then two that were partially agreed 
to and being acted on.
    If you want to summarize from where we are today versus at 
the time you did the study and your best information as you 
understand from your perspective of what major issues are still 
out there, or kind of in the works, and then we will get to the 
Department's perspective on where we are and how we are 
addressing those.
    Mr. Kutz. Right. I mentioned in the beginning that the 
issues were people, processes and automated systems. I would 
say that the significant activity has been on dealing with 
human capital issues and process improvements such as customer 
service and just dealing with the specific problems we 
identified in this report, putting other training and education 
programs in place.
    There has been quite a bit of activity and we have seen 
solid evidence that is happening. So I would say with respect 
to dealing with the current system and compensating for the 
problems with it, there has been very good progress. Our bigger 
concern is the Defense Travel System. When we did take a good 
look at the Defense Travel System as it relates to this 
problem, it was barely on the drawing board. I think that there 
has been probably some progress since we looked at that, but 
the key issue there is that system is a TDY system, which is 
temporary duty versus temporary change of station for 
reservists. It is a little bit different thing. Putting a 
voucher package together here in an automated manner would be 
much different than TDY. So the DIMHRS System is supposed to 
automate the various orders involved in completing a voucher 
package. We believe that is going to take some time to do.
    Mr. Platts. The progress we have made is good, and if I can 
maybe re-summarize your statement, as we concluded before the 
recess, is critical because of your belief that we are going to 
continue to rely on this labor-intensive system for a long time 
to come, based on your assessment of where the Defense Travel 
System is and the likelihood of that being online.
    Mr. Kutz. That is correct. Again, we look at a lot of 
systems at DOD and we have done a lot of work for your 
subcommittee on that, and I think we have some reports coming 
up for you. The real history of the systems at DOD is that 
there is no system that has ever come online on schedule within 
performance parameters and within cost parameters.
    So until they start showing that they can field these 
systems within cost, schedule and performance parameters, we 
believe that they are going to have to continue to deal with 
the current systems and make sure they have contingency plans 
in place to work around the current processes.
    So again, I think that is something the proof will be in 
when we see tangible evidence that these things are being dealt 
with from a system perspective.
    Mr. Platts. Mr Shine, maybe we will start with you on the 
recommendations were made and where you believe you are on 
those recommendations, and your assessment of what further work 
you have to do based on what came out of the recommendations 
from GAO.
    Mr Shine. Yes, sir. As Mr. Kutz indicated, when you look at 
this from the people, processes and systems perspective, the 
Army has part of this as it relates to their mission to publish 
orders and to determine the statements of non-availability 
which in many cases drives the entitlement that we work on.
    What the GAO specifically addressed to the DFAS operation 
was, one, the relation to the amount of time it was taking us 
to process the vouchers. I think I indicated that we have 
worked on that and we feel that we have had that under control 
for a significant amount of time now.
    Mr. Platts. And that is down to the 8 days.
    Mr. Shine. Yes, sir.
    Mr. Platts. Once you get it and process it, it is an 8-day 
turnaround.
    Mr. Shine. In what we call a ready-to-pay voucher. All we 
mean by that is that all the necessary itineraries are 
completed, all the normal justification documents are in fact 
included and the voucher is a completed package and we are now 
able to do that within 8 business days.
    The other issue that the General Accountability Office 
identified for us was the issue with interest. I just wanted to 
clarify for that. We already knew that this was an issue that 
was in the law, but anytime we did what we called a final 
settlement voucher, we were already identifying and paying the 
interest. Where we were not doing this, there was a situation 
where individuals that are mobilized in the United States, 
where they are actually getting what we call accrual payments 
every 30 days, we did not understand. We did not interpret the 
law, and when the GAO brought that to our attention, we 
recognized that needed to be done.
    So not only are we doing that now, but we are also 
committed to going back as the GAO asked us to do and take a 
look to see all the people who had gone since the mobilization 
started back, going back to the September 11 timeframe. We are 
committed to going back and looking at all those vouchers to 
determine if there in fact were periods or instances when 
mobilized soldiers should have received interest payments and 
did not.
    By and large, these are not large payments. I just want to 
make sure that I am clear. The average interest payment that we 
are paying today is about $8. So it is not a lot of money, but 
it was something that we had a different interpretation of. 
Once the GAO identified it, we did not wait for their draft 
report. We went ahead and changed that on the spot. So from 
that standpoint and working with the Army to bring on 
sufficient assets to get the turnaround time under control, we 
feel like we are doing fairly well.
    The other issue that is in our lane has to do with customer 
service. This is really getting at what happens when people 
call in or tell us that they have a problem. There were 
problems when the GAO did their initial report that related to 
backlogs, the volume of calls that actually exceeded our 
capability to answer. We have taken several positive steps to 
address that. If you would like me to, I can go through them in 
detail, but I would like to let you know that we feel our 
customer service now is much, much improved from what it was at 
the time the GAO did the report.
    Mr. Platts. One specific question on that customer service 
side is I guess initially, according to the GAO report, when 
you set up an 800 number and were fielding I think it was 
15,000 calls per month, I believe, if that is correct.
    Mr. Shine. That is correct.
    Mr. Platts. But it appears that you were not gleaning from 
those calls, using metrics to identify what were the underlying 
problems to go out and try to fix them out front so you would 
reduce the number of calls in the first place. Is that 
something you are doing now, that you are better reviewing the 
substance of those calls? I acknowledge and it is a good step 
that you are being responsive, but are you learning from that 
response?
    Mr. Shine. The answer is yes on a couple of fronts that I 
would just like to mention. First of all, we recognize that a 
large number of the calls we were getting were simply people 
trying to find out if we had gotten their voucher or not. One 
of the things that GAO pointed out to us was that we were not 
logging in every voucher that we received. So once we start 
logging in, it is an automated process that feeds an email 
directly to the soldiers, what is called AKO, or Army Knowledge 
Online email account. It tells the that their voucher has been 
received, and they get a similar email when we have computed 
the voucher because we are now following that log-in process. 
So we have seen the number of calls, first of all, cut in half 
from what the GAO originally saw.
    We also have a system called an automated call distribution 
system we have in place that has up front, while some people 
find it to be somewhat irritating to go through what we call an 
interactive voice response, where you press one for this, press 
two for that, press three for this, remember that the customers 
we are taking care of in many cases are located around the 
world. Their duty hours are much different than ours. So while 
in many cases people just want to get information about the 
status of their travel voucher, having an interactive voice 
response system like that we have found to be very, very 
helpful.
    As a result of that, we have been able to identify when 
those calls come in like that either on the interactive voice 
response system or if they actually talk to a human being, we 
are now able to do what we call data mining. We are actually 
able to go back and look at what trends we are seeing and that 
allows us to be able to provide that to the weekly information 
that we provide to the Army to also help as the Army is going 
out, and with the Army Guard to work directly with the units on 
problems that we are seeing out there. But it also tells us if 
we are having a problem inside of DFAS so we can fix that as 
well. I think we have taken positive action on both of those 
venues.
    Mr. Platts. You mentioned, I think you said that 8 days is 
ready to pay vouchers. Is that the correct term?
    Mr. Shine. That is the correct term.
    Mr. Platts. Everything is in order, but one of the problems 
that was identified are the hoops that a soldier is having to 
go through and the voucher comes in and it maybe had three 
problems with it, but only one was identified. It was sent 
back, you are missing something, it comes back, oh, you forgot 
to sign it, it goes back.
    It is my understanding you have set up in essence I will 
call it an ombudsman office so that instead of sending them 
back and forth, you have someone who takes that and works the 
problem on an individual case. Can you expand on that?
    Mr. Shine. Sir, I can. That ombudsman program came into 
effect as a result of both your subcommittee and the larger 
House Government Reform Committee requesting that both the 
Guard and the Reserve establish such an ombudsman program for 
pay. Once it was already in place, it was the perfect vehicle 
to take care of these travel-related issues as well. While you 
may not be aware of it, sir, where we actually conduct all 
these travel processes that I am referring to, what we call 
contingency travel operations, is in Indianapolis.
    The Army National Guard has a pay liaison office also 
located in Indianapolis, which is the source of their ombudsman 
program. So what we are able to do, sir, is as these issues 
come up, we now take them directly to the Army National Guard 
office. I would be happy to let Mr. Argodale talk about what 
happens from that point on, but we found that to be a very, 
very responsive process. As a result, we have seen much quicker 
turnaround and in many cases we do not even have to return the 
voucher to the soldier at all. The Army National Guard 
Ombudsman Office is able to fix the problem and we can take 
care of it within 24 hours.
    Mr. Platts. On the automated systems, sometimes they are 
frustrating. I have a bank that if I want to check something I 
can do that automated system. The fact that with my hours, when 
I get to call the bank is about midnight. There is usually no 
one there answering the phone, but I can get my automated 
system. That use of business practices, which is something I 
know you are really looking at doing, and I think, Mr. 
Secretary, maybe you talked about it in your testimony of using 
some business practices to kind of modernize your processing, 
is great to hear in trying to address what was a fairly abysmal 
situation in the past that is still a challenge, but at least 
heading in the right direction from what you have to work with. 
I want to get into the computer issue, which is a long-term 
issue, but in trying to address.
    I do want to ask at least a couple of specifics on a couple 
of the cases. One actually Mr. Kutz referenced in an example. I 
think you said it was a Maryland Guard unit that was authorized 
for reimbursement and paid, and then subsequently the 
authorization as taken back.
    Mr. Kutz. That was actually a Georgia unit.
    Mr. Platts. Georgia. Did I understand you correctly in 
saying that in that instance, the soldiers were deployed and 
while they were deployed debt collection proceedings were 
begun?
    Mr. Kutz. That is correct.
    Mr. Platts. Were they deployed overseas?
    Mr. Kutz. Iraq, yes.
    Mr. Platts. To Iraq.
    Mr. Kutz. Yes.
    Mr. Platts. That seems an example of a pretty poor 
approach. How often has that happened and are we working to 
ensure it never happens again, because of the improvements you 
have made? That is something that if a soldier is paid and you 
are deployed, I think it is a fair assumption for a soldier to 
make on being paid appropriately. Their concern should be 
fighting the war, not getting paid. That is back here.
    I understand errors are going to happen in that pay, but 
the fact that we then compounded the error by actually 
beginning debt collection against soldiers who were deployed in 
Iraq. Can we expand on that? I am not sure who is going to best 
be able to respond, Mr. Shine, if that is you or the Secretary, 
who would best be able to address that specific case?
    Mr. Argodale. Sir, I am not familiar with the specific 
entitlements that may have resulted in an overpayment and a 
collection action, but I can tell you that we have been very 
proactive with respect to training soldiers and educating them 
on what the entitlements are and the proper methods for filing 
a travel claim and the things that they can expect to be 
reimbursed for.
    One of the major issues that we corrected with respect to 
the findings in the GAO audit is the issue of meals, and 
whether meals are reimbursable or the soldier has to pay out-
of-pocket. All of the mobilization orders now have a statement 
that clearly states that meals will be provided at no cost to 
the soldier. In situations where soldiers are not housed in a 
government facility on-post, and they are off-post somewhere, 
meals that are consumed during non-duty hours are reimbursed.
    We also tell soldiers that they need to have a statement of 
non-availability in order to be entitled to certain types of 
reimbursements. So we think that an up-front kind of an 
education process is the best remedy to ensure that soldiers 
understand what they are entitled to and what they are going to 
be reimbursed.
    Mr. Platts. I agree. I think the steps that you are taking, 
such as making it clear on those papers that reimbursement, 
those meals being provided, those are all very important steps. 
Somehow, though, in at least this case reference, and I am not 
sure how common this is, and that is why I asked the question. 
I hope it is not. Something was filed and reviewed and 
authorized, acted on and paid, and then there is either, 
correctly or incorrectly, a rescission of that authorization 
that resulted in an effort to recoup the money. Even if it was 
an accurate rescission, the fact that we would begin debt 
collection while soldiers were deployed is to me unacceptable.
    Who would actually have begun that debt collection? I am 
not sure what office. Would that be DFAS?
    Mr. Shine. Sir, what happened in this particular case, and 
it was somewhat unusual because the individuals, as Mr. Kutz 
indicated, were from Georgia and at the time they were actually 
activated to go to Fort McPherson, GA. What ended up happening 
was there are certain restrictions in the joint travel 
regulations that preclude an individual from drawing temporary 
duty allowances when they are actually able to live at home. In 
this particular case, each installation has to make a 
determination installation-by-installation, by the installation 
commander as to what the commuting distance is going to be 
considered whether or not you are entitled.
    What happened, sir, was we were paying these people full 
per diem allowances. There was a decision made subsequently by 
the installation commander at Fort McPherson that individuals 
in certain counties were considered to be within the local 
commuting distance and therefore not eligible, and therefore 
these payments that had been made were then determined to be 
improper payments and therefore they were collected.
    I fully appreciate what you are saying about the fact that 
when people are going into harm's way and these collections are 
being made, but it was a normal administrative process that was 
just, if you will, going through. Once the individuals were 
identified, we then processed the collection actions. That is 
actually how it happened, sir.
    Mr. Platts. Are there any safeguards in place today, one, 
to have that administrative decision that this is a commute, so 
reimbursement, there is no eligibility here, up front, so that 
we are not repeating that type of problem? Because it sounds 
like it is still a local installation decision, but how are we 
ensuring that decision is made up front by that installation 
commander and not after the fact to avoid this. And also, what 
is still the position today if there is an overpayment as far 
as debt collection, if it is a soldier deployed? Because it 
seems to me that an effort to identify and work with the 
soldier, but it seems that we were kind of like, well, whether 
you bore responsibility for the error or not, it is your 
responsibility and we are coming after you, is how it sounds. 
If I am wrong, I am glad to be corrected.
    Mr. Wallace.
    Mr. Wallace. Yes, sir. From a policy position, in direct 
response to this particular case, we have gone back out in our 
policy guidance to all installations and all units to reiterate 
what the joint travel regulation says and what the law says, 
and to provide them with vignettes that would allow them to 
differentiate when this person should be reimbursed and should 
not.
    Mr. Platts. So you have taken a proactive education 
approach, and that includes, too, installation commanders?
    Mr. Wallace. It goes to every unit and every organization 
in the U.S. Army.
    Mr. Platts. I think what is good that it has come out of 
the GAO report is that they have identified issues, examples 
like this, that I appreciate that you are seeking to respond to 
these cases and learn from them and try to guard against a 
repeat of that type of problem. To me, when I read the report 
and the testimony it is that on the one hand I am displeased 
because of what we put our soldiers through, but I am also 
encouraged by the efforts to correct the wrongs of the past to 
make sure we do not repeat them in the future. That is where I 
hope as a result of this hearing, we can help continue to push 
in that right direction.
    So I have more questions, but I want to yield to the 
ranking member, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me ask you, Mr. Shine, is DFAS' problem human capital 
or is it technology barriers?
    Mr. Shine. Sir, I would answer that we are probably a 
little bit of both. We actually operate a semi-automated system 
that we use today. The reason I call it semi-automated is 
because it requires paper to come in and then we inter-date it 
into a system that automates the computation of what the travel 
reimbursements are. So we are in fact involved with that 
process and that is in fact the payment system that is used 
today to pay the individuals that we are describing, not only 
for the mobilized Guard and Reserve, but also it is what is 
paying the active duty for regular temporary duty travel as 
well.
    The issue that DFAS had in terms of human capital, sir, I 
would say really was one that occurred in approximately May 
2003, when we saw a huge surge that overwhelmed our capability 
for on-staff personnel. We knew that this was directly related 
to the global war on terror. We anticipated that this would not 
be something that would continue ad infinitum. So rather than 
going out and hiring full-time permanent Civil Service 
employees, we worked with the Army.
    The Army gave us money to hire contract personnel because 
we viewed this as a short-term mission. The Army also was very, 
very helpful in actually going out and getting Reserve and 
Guard units whose primary mission is to do finance, who 
actually came on board for their active duty mobilization, came 
to DFAS and actually sat and computed vouchers to help out with 
this process. The Guard and Reserve were only there for 1 year, 
but the good news is that with the continued support of the 
Army by giving us the dollars that we need to maintain the 
human capital, we have now at DFAS the right number of people 
on board, we think, to take care of the vouchers that are 
coming in such as we can maintain the 8-day turnaround time.
    Mr. Towns. So you really feel that as we move forward there 
will be less chances of these kind of occurrences where people 
will not get paid or will not be able to travel, will have to 
wait for reimbursement? You really feel that based on what is 
in place now that a lot of this will just disappear?
    Mr. Shine. Sir, the other dimension of the human capital 
issue has to do with the individuals that are actually 
completing the vouchers and their chain of command who are 
reviewing those vouchers. I would really prefer, if I could, to 
defer that question to the Army under their domain, because 
there is a human capital issue there on whether or not the 
voucher we get is in a status that can be computed or not.
    Mr. Towns. Right. Let me ask you then, Mr. Argodale, are 
the policies clear? Should they be revised to be able to give 
the kind of instructions that need to be put forth in order to 
eliminate some of the things that are going on? It seems to me 
that there is a lot of stuff here that is a little fuzzy.
    Mr. Argodale. Sir, I would agree with you. As a traveler 
myself and a person involved in the finance and accounting 
business in the Army, I can tell you as both a traveler and a 
finance person, that the rules are fuzzy and there is some 
confusion. It is compounded by the fact that the preponderance 
of the soldiers who are involved in the case studies are not 
what you would call professional travelers. They travel very 
infrequently and their understanding of filing the claims, 
filling out the forms is very limited.
    What we have done to correct that is undertaken a massive 
education and training program to enlighten these folks with 
respect to how to fill out the vouchers. We train their 
commanders in what to look for in terms of how to properly 
compile and complete and submit a travel claim. We explain to 
them what the entitlements are and what they can expect to be 
reimbursed for. We have corrected problems associated with 
mobilization orders to clarify meals and lodgings will not be 
charged to the soldier, they will be provided at no cost to the 
soldier.
    We review on a weekly basis metrics that DFAS provides that 
identify the common types of mistakes that are seen in travel 
claims that cannot be computed. We work with DFAS and with the 
Guard and the Reserve components to improve the training 
materials, to incorporate the mistakes we see in the actual 
travel claims that are filed.
    So Mr. Shine is correct. On the one aspect of it, the human 
capital, pertains to the folks available to actually process 
the claims, and then on the other side there is a human capital 
dimension with respect to the traveler actually filing the 
claim. During the period of the study, we were not doing a real 
good job, frankly, in educating people on how to file a claim 
and what they could expect to be reimbursed for.
    Mr. Towns. Right. Mr. Wallace, what effects have the 
reimbursement problems, have you identified that, I guess I am 
more concerned about the morale and of course the family 
circumstances. I can see all kinds of things happening here as 
a result of this. I can see the morale being low. I can see 
family situations in terms of that can treat problems in terms 
of the family itself. Domestic problems I am talking about. 
What have you seen in this area, or am I overreaching?
    Mr. Wallace. Yes, sir. What I can tell you from the Army G-
1 who compiles all of the recruiting and retention stats, I can 
tell you that all three components of the Army are meeting 
their retention goals. What that tells me as a former colonel 
in the U.S. Army myself and a commander once upon a time, is 
that the people that are with us now are staying to the 
appropriate levels that we need to man the all-volunteer force.
    What we are seeing on the other hand, though, with 
recruiting is that we are seeing a fall-off of our ability to 
gain the numbers that we need. Part of that deals with the time 
of the year that we are in now, and I am sure part of it deals 
with the things that you mentioned. But as far as the people 
that are in, and I know the National Guard has hit its marks 
every month this year for retention. So that tells me that the 
people are staying with us.
    Mr. Towns. I see the red light is on, Mr. Chairman. I yield 
back. We will have another round?
    Mr. Platts. Yes, sure. Thank you, Mr. Towns.
    Mr. Towns. OK. Thank you.
    Mr. Platts. A followup on the Georgia Guard case, and again 
from what we learned. I think that is one of the important 
aspects of our past interactions and again this hearing today 
is learning from the actions of the past and how to improve 
them in the future.
    The case where the per diems were paid and then as final 
settlements were made, the installation has decided, I guess it 
was a 50-mile distance for being eligible. Was there any 
individual treatment of those cases? What I mean by that is 
were some soldiers, and I do not know the specifics of these 
cases, but they might have decided, well, 50 miles, I can drive 
that. I commute 96 miles each day for session each way.
    But if I am being reimbursed and I am eligible, I am going 
to take a hotel at least Monday, Tuesday, Wednesday, Thursday 
for the days during the week, depending on what the schedule 
is, and they actually did have out-of-pocket expenses under the 
belief that they were eligible. Was there any examination of 
the individual soldiers? Or was it the policy as of when we 
finally settled it was 50 miles or not, and no accounting for 
those who maybe actually had out-of-pocket expenses for lodging 
or meals in good faith, under the belief that they were 
eligible?
    Mr. Shine. Sir, I believe that there are portions of your 
questions that I do not know, but there are some portions that 
I think I can address.
    Mr. Platts. OK.
    Mr. Shine. First of all, the 50-mile rule, while that is 
commonly used, in vogue commonly throughout the Department of 
Defense, is actually not the proper regulatory reference. In 
this case, that is not what was applied. It was actually a 
county-by-county determination that was made by the 
installation commander. But nonetheless, you have a situation 
where on the county line, you could have an individual living 
on one side of the road who was considered within the commuting 
distance, a person across the street that was out.
    What we did find, sir, was even in those cases where 
individuals were determined after the installation commander 
made the decision to be within that normal commuting distance, 
there were times when based on their duties they were 
considered to be called what is known as ``essential'' 
personnel, which meant that they had to remain at Fort 
McPherson for a longer period of duty. In many cases, they had 
to spend the night there. In those cases when they were 
required for their duty to be present and not to be able to go 
back to their normal home of residence, then those per diem 
entitlements were allowed to be paid.
    But in terms of your larger issue about how it was dealt 
with individually for each member of that unit, I am sorry, 
sir, I do not know, but I will be happy to research that and 
give you a more complete answer.
    Mr. Platts. I think it is something worth looking into to 
learn from the past because, and it has been too many years 
since I was in law school and practiced law, but the principle 
of estoppel I think is maybe what I am thinking of here, where 
you in good faith relied on what you were told and to now be 
punished for complying with what you were told up front, and 
retroactively be harmed, that if they in good faith relied on 
it and had actual out-of-pocket expenses, so that we are not 
talking about a windfall here, that there is a good case to be 
made that they should be able to account for them.
    How they would retroactively account for them if they were 
not being required to up front is another issue, but I think it 
is something worth looking at. It really goes to that issue of 
the ombudsman where you individualize these cases because there 
are going to be extenuating circumstances as in this case, 
where you found those where they were essential, that is an 
extenuating circumstance if they are required, but maybe they 
were not required, but hey, I am going to be reimbursed. 
Instead of driving home tonight, I am going to stay, thinking I 
am not going to have out-of-pocket.
    So I do appreciate your looking at that and giving us a 
general response if you would.
    Mr. Shine. Sir, I would be happy to do that and provide you 
with a more detailed response. I would also like to let you 
know that what you refer to as estoppel, in the Department of 
Defense we actually have a waiver and remission process. So it 
is possible for an individual to submit a waiver and the 
circumstances that you describe, which is that I relied on what 
I thought was to be solid information from a government 
official, and if in fact individuals can produce receipts that 
they actually incurred expenses relying on that information, 
that has been the grounds in the past for us to consider and 
approve a waiver process.
    Mr. Platts. In that sense, then, an individual appeal 
ability?
    Mr. Shine. That is exactly what it is, sir.
    Mr. Platts. OK. That is good to hear, because if there was 
not actual out-of-pocket expenses thought to be reimbursable, 
and we do not want a windfall, I understand that, that we do 
not have that windfall. Even in that instance, though, the fact 
that in the end we suspended the efforts to have collection 
until the soldiers returned, that would kind of be a general 
practice that we try to put in place. I will tell you, I will 
be visiting troops probably in the next week-and-a-half or so 
overseas, including Iraq, I believe, as the schedule is 
planned, but the one thing I hear, whether I have been with 
troops in Iraq, whether I have been in Afghanistan or Bosnia, 
is the most common request I have heard from troops is just do 
right by my family back home so I do not have to worry about 
bills and my family, and I can just do my job out here on the 
front.
    I appreciate your looking at it further because if we have 
guys on the front lines and they have a debt collection and 
maybe it was a windfall, and now we are going to necessarily 
collect it, but they have already spent it because they did not 
know it was a windfall. That creates some financial hardships, 
that we go out of our way to account for that. And it sounds 
like there is an effort to do that and that you are learning 
from these actions of the past. So I appreciate your doing 
that.
    So I do not forget from a procedural standpoint we do have 
a written statement from our full committee Chair, Chairman 
Davis, that we will submit without objection for the record in 
today's hearing.
    We have maybe another 15 minutes or so. We have those floor 
votes done, but I have another markup going on in the Education 
Committee that has votes coming up here as well.
    Mr. Wallace, I want to touch on the place, when I looked at 
the numbers and the spike that occurred in 2003, I guess, and 
where Mr. Shine and your staff, you got overwhelmed with the 
number of cases you were being asked to handle. There cannot be 
an exactness, I guess, to what those numbers were going to be, 
but there certainly should have been some lead-time of here is 
how many troops we are planning on mobilizing, Guard troops.
    How would that process work through the chain of command 
and communication to DFAS to say, 3 months from now we are 
going to have this huge number being called up, and so you had 
better be ready with staff because you are going to get 
inundated subsequent to that mobilization. How did that happen 
then and how is it happening different today so that we are 
better communicating? I think that would be something more of a 
policy that you would be looking at.
    Mr. Wallace. Sir, actually a tad out of the G-1's lane and 
really a G-3 question, who is responsible for the mobilization 
of the Army of all components, and tasking through the force 
providers, those organizations that will meet the requirements 
from General Abizaid and the combatant commanders.
    Your question is good, though, should we have known that we 
were going to demobilize or we were going to fill vouchers and 
field that many vouchers at one time is a very good question. 
From the Army's standpoint, we probably should have been able 
to foresee that.
    Mr. Platts. That is what jumped out to me is that it at 
some point should not have been a surprise of how many troops 
were mobilizing and then from then forward the number that were 
going to be demobilized and the new mobilizations, and it is an 
ongoing process. I mean, as we speak that process continues.
    Mr. Wallace. One of the things that we have instituted as 
we have gone along is a Saturday video-teleconference with the 
people in-country, dealing with them. Mr. Argodale's 
organization has a representative that attends that every week 
where we talk about mobilization issues and we talk about 
demobilization issues. We run through all of the numbers and 
the different organizations by unit of who is being mobilized 
and who is being demobilized, and the issues that we are seeing 
while we are going through that. I would see that as a conduit 
for sharing information that could help us prevent this in the 
future.
    Mr. Platts. Again, my hope is that we are learning from the 
past. I would imagine, Mr. Shine, you and your staff got a 
little overwhelmed as the numbers of vouchers started rolling 
in, compounded by the system that was in place that as they 
were sent back for corrections and came back a second time or a 
third time. The analogy I would make, we see that right now 
with immigration services where because they are not able to 
timely process the applicants for visas and things, they are 
giving temporary extensions which take more manpower, which 
then just compounds the casework for the same amount of staff, 
and it is just a snowball getting bigger and bigger.
    Are you comfortable from a manpower standpoint of where you 
are today and the infrastructure changes in the communications, 
that you are positioned to, under the system you have, to deal 
with the volume of mobilizations and demobilizations that you 
are dealing with?
    Mr. Shine. Sir, I would say as a general rule the answer is 
yes. The Army, I think, as Mr. Wallace indicated with the Army 
operations under the G-3, is trying to do the best they can to 
get word out to not only the financial community, but all the 
other support communities, medical, legal, that are affected by 
mobilizations and demobilizations.
    Where we actually have to get involved with a little bit 
more intelligence is the fact that if an individual is going to 
be mobilized and sent to either Afghanistan or Iraq, in all 
likelihood, sir, they are not going to file a voucher until the 
completion of their mobilization tour, so in the final account 
process, that is one.
    If in fact they get deployed to the United States, and that 
is they actually come on an active-duty tour, but stay in the 
United States, in many cases they are staying in a place where 
they are going to be incurring expenses and they are going to 
have to be reimbursed every 30 days so they can pay their 
credit card. That same individual only counts one for 
mobilization purposes, but now from my standpoint, I am looking 
at paying them 12 times.
    Mr. Platts. Twelve times, right.
    Mr. Shine. And so that has to be factored into the overall 
equation. But sir, I would just say that while it was a huge 
spike and I think that we could probably take a hit for not 
being more attentive to it, I think that with the work we have 
done in partnership with the Army over the last 18 months, to 
give us advance information not only for travel, but remember 
that when we were here briefing you in July on the pay issues 
for the U.S. Army Reserve, we now have put into place specific 
provisions where we get advance notification on units that are 
mobilizing and demobilizing, so we can check to make sure that 
all their active duty pay entitlements are started when they 
should start, and that they are terminated when they leave 
active duty. So all we are doing is taking that same 
information and using it to predict travel reimbursements as 
well.
    Mr. Platts. And that proactive approach is so important 
here.
    Mr. Shine. It is working very well.
    Mr. Platts. Good to hear.
    Mr. Towns, did you have other questions?
    Mr. Towns. Yes, I do.
    Mr. Platts. OK. Mr. Towns.
    Mr. Towns. Mr. Kutz, in your testimony, you state that DFAS 
has added over 200 additional staff to assist with the 
increasing paperwork and voucher activity facing the agency. 
One concern I have is that adding people who may not be well 
trained might not be the solution to the problem. It might even 
further exacerbate the problem. With that said, what have you 
been able to identify, any training or development efficiencies 
among the newly added staff?
    Mr. Kutz. I think, and Mr. Shine could probably add to 
this, that initially when they had to hire several hundred 
people in a very short period of time, that was a major 
challenge for them. I think as time has passed, they have been 
able to train some of those folks and get them up to speed. It 
is a very complicated system, actually, to understand all of 
the entitlements and the various orders and the types of paper 
that come in. Again, one of the symptoms of having a very 
paper-intensive process is when you have a volume increase 
which was like 3,000 vouchers a month up to 50,000 vouchers a 
month, the system can come crashing in and you just have mounds 
of paper to deal with and that requires significant numbers of 
people. But I believe that initially they had training issues, 
but they have worked hard to address those.
    Mr. Towns. Is anybody anywhere working to simplify this? I 
just have problems with the fact that somewhere along the line 
that we cannot simplify it. There are all these, again, these 
different gray areas. It seems to me that some way or another 
we should just make it clear as to what is and what is not. I 
mean, is anybody looking at this in a very serious way?
    Mr. Argodale. Sir, I will----
    Mr. Towns. I served in the military, too, incidentally. Go 
ahead.
    Mr. Argodale. Several years ago, the Department undertook 
an effort to simplify travel. This was kind of the precursor to 
implementing the Defense Travel System. A couple of things that 
we did was eliminate the need for receipts for certain types of 
claims. We eliminated the payment on a pro-rated basis based on 
the time of departure and the time of return. In the immediate 
case, we clearly now stayed on mobilization orders that 
soldiers are entitled to, meals and lodging at no cost or they 
are entitled to reimbursement for meals consumed when they are 
not in government lodging. So those kinds of things have helped 
to simplify the process.
    I agree with you, sir, it is a very paper-intensive and a 
very confusing process. It is particularly difficult for folks 
that are navigating it for the first time. There are a lot of 
errors that can happen. But the education programs, the 
training that we provide, in fact, the Guard provides as part 
of the training package a template of how to file the claim, 
what can be expected to be reimbursed, and they even provide an 
envelope that is addressed that the soldier can put the claim 
in and mail the claim to Indianapolis to be computed and paid.
    And then the ombudsman cell, which as Mr. Shine mentioned, 
is co-located with the entitlement folks working for him at 
DFAS, is there as kind of a backstop, a quality control kind of 
a mechanism to work in conjunction with the DFAS entitlement 
staff to ensure that the paperwork is properly assembled and 
prepared, and to work with the soldiers to help them understand 
when there is an incomplete claim that additional information 
needs to be provided so that we do not create, as the GAO 
called it, this business of churning and rejecting the same 
claim back to the same soldier multiple times.
    Mr. Towns. Let me ask another question. Based on the 
problem here, I can see a lot of soldiers having problems with 
their credit. What is being done about that, because I just got 
my credit report the other day. I know in terms of how 
important that is. So what is being done about that?
    Mr. Shine. Sir, let me try to address that if I could. What 
I would like to do is reference you back to this huge spike 
that I was talking about, where we in the Department knew that 
we were not going to be able to have, we had so many vouchers 
on hand and we had not yet gotten our full staff on board. Most 
of these individuals incur their expenses through the 
government travel card which is currently being done through 
Bank of America. We contacted Bank of America. We explained the 
problem to them. We asked them directly, would they be willing 
to forego and suspend collection action for up to 90 days and 
they said absolutely yes. We estimated we could get out of the 
predicament we were in within 90 days and as a matter of fact, 
we were.
    So the bank cooperated in that case. That obviously was 
what I would call sort of an extreme case where we went to the 
bank for the entire Department of Defense. Now, we have 
individual situations, as the GAO has described, where while we 
are confident we can process a voucher in 8 days, if in fact 
the voucher comes in without complete documentation, we have to 
send it back, or if for some reason the traveler upon 
completing the travel delays in submitting the voucher, there 
are possibilities that we could now be going beyond 30 days 
when that individual's bank statement is going to be due.
    There is a provision for individuals who have not yet been 
reimbursed by the Department to notify the Bank of America and 
to suspend the fact that payment is due and they are willing to 
do that for a period of time. Then what we would like to have 
happen in that case is either directly to DFAS or through the 
ombudsman program that we just described, for that to be 
elevated for the individual traveler so that we are aware that 
this individual now has a problem that could impact on their 
credit, so that once we get the voucher ready to pay, we can 
move that to the front of the line so that we can prevent those 
very kind of situations from occurring.
    Mr. Towns. OK.
    Mr. Chairman, I yield back. Thank you.
    Mr. Platts. Thank you, Mr. Towns.
    That type of coordination is exactly what we are after, an 
acknowledgment of the challenges of what happens with DFAS and 
the system that impacts the soldiers and their families, and we 
are trying to address that in a proactive way.
    I think I have 8 to 10 minutes before I have to run off 
with these votes. I want to get into the defense travel system. 
A couple of things concern me here are long term, that seems to 
be the solution to get away from this labor-intensive process 
and a more efficient technology-driven, and will allow for a 
much more seamless process here. The picture, though, on that 
side does not look real promising. My understanding from the 
report is that as of the end of 2003 we spent $288 million 
already, with the estimate of needing another $251 million to 
try to complete it by 2006. But even if we do complete it, it 
is not going to be able to truly account for all of the 
processes that you are responsible for as it is currently 
structured.
    So I guess I would open it up to all four of you, if you 
can comment on your understanding of where we are with the DTS 
and once we complete it, where we will be as far as truly 
solving these problems. I will add in the other thing that 
jumps out to me is that if I understand the way the system is 
intended to operate, because of the issue of DTS and the issue 
of TDY payments versus actual mobilization, that you are going 
to be relying on this new DIMHR System to transmit information 
to DTS to then act on. And that we really do not know when that 
is going to be up and running to have the information available 
to transfer.
    So it is a big issue and a lot of different aspects to it, 
if each of you would want to comment on your perspective.
    Mr. Shine. Would you like me to go first?
    Mr. Platts. That would be great. Thank you.
    Mr. Shine. DTS as you have indicated is in fact in 
operation today. It is in operation at over, I believe, 4,000 
sites and the current deployment plan is to have DTS fully 
fielded to all of the Department sites by the end of fiscal 
year 2006.
    Mr. Platts. And that still holds today? That is the 
schedule that we believe we are on?
    Mr. Shine. Yes, sir.
    Mr. Platts. OK.
    Mr. Shine. But your question actually identified that while 
that might be fielded to everybody in the Department of 
Defense, the reality is today that the DTS is limited in 
everything it is able to do. I actually agree with Mr. Kutz's 
statement that we are going to be processing in this semi-
automated paper-based mode for definitely a period to come. It 
is hard for me to give a specific date on it, but I agree with 
his contention that is going to continue to exist.
    There are releases that are planned over the next several 
years from the DTS program management office that will 
incrementally address these issues. So that right now, it is 
primarily doing what we would call routine temporary duty, and 
the type of mobilization temporary travel that we are talking 
about is not in that category. There is a process moving toward 
doing exactly that and the DTS PM's office is working with each 
of the military departments and the specific issues, sir, you 
referenced to DIMHRS, which is the migratory military pay 
system, is because that is both pay and personnel. So it will 
have the capability to produce military orders. It is working 
right now with each of the military departments, the Navy, the 
Air Force, the Army and the Marine Corps, because each of them 
have their own unique order-issuing capabilities today, and 
trying to standardize that process is why this is an iterative 
process.
    If you would like specifics on exactly which future 
releases are going to contain which additional functionality, 
sir, I would be happy to take that question and provide it for 
the record. I just do not have it right now at the tip of my 
fingers.
    Mr. Platts. OK.
    Mr. Argodale. Sir, in the Army we have DTS currently 
deployed at 34 major posts, camps and stations. The 
functionality in DTS does not support the requirements of the 
Reserve components. Based on my understanding of the scheduled 
deployment release, functionality will be provided sometime in 
2006.
    I currently use DTS myself and I am the typical business-
type of traveler. I can tell you from experience, sir, that it 
is a cumbersome system to initially become accustomed to, but 
once you have done a couple of trips inside of DTS, you sort of 
get the hang of it and then it becomes a routine type of a 
process.
    It is very efficient. It tells you as a traveler what you 
are entitled to before you leave, and it is very clear with 
respect to each day giving you an itinerary and what you can 
expect to be reimbursed in terms of meals, lodging, that type 
of information. And then on the return trip when you actually 
file the claim, it tells you how much you will be reimbursed. 
It shows how much should be split paid to your credit card 
account, so that you do not have to write a paper check to make 
the credit card payment, and then how much will be reimbursed 
back to you for things that you did not charge on your credit 
card.
    Then typically you are reimbursed within 24 to 48 hours 
after the claim has been certified by the certifying officer 
and submitted for final computation of payment. So it does do 
very efficiently what it is designed to do currently, and as a 
customer of DTS, the Army is looking forward to the 
functionality being added for the Guard and Reserve some time 
in 2006, so that we can bring the Reserve components on board.
    Mr. Platts. One of the statements you made concerns me in 
the sense of that initial understanding of the system and that 
cumbersome, because your typical traveler maybe under DTS now, 
I would imagine not in comparison to a Guard or Reservist, is 
not going to be regularly using it, but be using it and may be 
not using it for 6 months, or using it and be deployed for a 
year. It is going to be different than a weekly or monthly 
basis.
    Is there a plan in the Guard and Reserve for an intense 
education component for those who are going to be using to try 
to overcome the cumbersomeness of the system?
    Mr. Argodale. When we deploy DTS to a post, camp or 
station, we have a very regimented deployment process that 
includes business process changing. We look at the current way 
business is done and then we look at how business processes 
need to be changed around DTS. We also provide significant 
training for the users, both the approving officials and the 
travelers. We leave onsite a help desk person. I think 
currently we have about 50 or so full-time help desk people 
supporting the 32 sites that we have currently deployed. We are 
looking at ratcheting that up as we continue to deploy.
    But sir, I agree with you that this is going to be a 
challenge for the infrequent traveler, not only in terms of 
training, but the recurring refresher-type training that they 
are going to need.
    Mr. Platts. The analogy would be in my office, we have a 
great case management system that my staff, you know, they can 
get on there and pull up information. When I get on it and try 
to find a specific case, it takes me a long time because I do 
not use it every day like they do. That is my worry, is that we 
fine-tune it and that education, and learning from the 
challenges of those using it today and try to improve it for 
when we actually go to the Guard and Reserve.
    I want to get Mr. Wallace and Mr. Kutz in here on this 
broad issue and how you want to comment on your perspective on 
DTS and how it will interact with DIMHRS.
    Mr. Wallace. Sir, I am kind of a customer of DTS from this 
side, but from the policy side some of the things that we are 
doing that will help set us up for DTS, for example, setting 
standard data elements for statements of non-availability and 
such, that are being proliferated throughout the Army will help 
us in the transition as we move toward DTS, as we start 
fielding it.
    So from a policy standpoint, we are trying to standardize 
across not only the Army, but the services, with the different 
travel entitlements and such.
    Mr. Platts. And those policy directives, are they shared in 
a way that those who are working the DTS system kind of 
incorporate those and ideally from a programming standpoint to 
have them, like now you stamp that order, that policy change 
where an order is changed as far as their entitled to 
reimbursement for food, no out-of-pocket expense for the food. 
That is something that goes on their order up front. Is that 
something that we translate to computer programming that it 
will know that? Is that something that we can hope to see?
    Mr. Wallace. Sir, I do not have any knowledge of an 
automation system that would be in the plans. We would have to 
take that for the record and come back to you.
    Mr. Platts. OK.
    Mr. Kutz.
    Mr. Kutz. I think it is important to give you a little bit 
of historical perspective here. DTS has been underway for about 
8 years. It was initially intended to provide TDY travel 
services for the Department in 1999. So we are in 2005 right 
now, and we are still rolling it out. So with respect to 
automating and integrating the authorizations, which is the 
unique part of this for the Guard and Reserve soldiers, when we 
looked for information on that, it seemed to us that it was 
just barely on the drawing board, if you will. We did not see 
things like specific requirements, testing plans, pilot plans, 
schedules etc., to roll that out.
    So I am very skeptical that DTS will be capable of 
providing the kinds of functionality necessary for mobilized 
Guard and Reserve soldiers anytime soon.
    Mr. Platts. That is my worry, that we are going to have 
spent $500-plus million and get to 2006 and find that, well, it 
was well-intended, but it is not really doing what we wanted to 
alleviate, that heavy manpower and the labor-intensive, and we 
are going to be starting over and be 11 years after when it was 
first envisioned as a solution, and be $500 million down and 
not have the long-term benefits that those dollars were 
intended for.
    So my hope on that is, as the coordination and dialog has 
occurred on the pay issues and now on travel issues, we clearly 
have made some important improvements and significant 
improvements for the good of those men and women in uniform and 
how we are reimbursing them. That has come about through 
extensive, I think, interactions between GAO, the Department, 
DFAS, all working hand in hand, is that we continue that very 
proactive approach and take the good that has occurred and 
build on it so that at the end of the day in 2005 and 2006 and 
beyond, that, you know, the types of cases that were found in 
the case studies are truly the exception and never again the 
norm. I think we have the chance to do that if we remain 
diligent in our efforts.
    Mr. Towns, did you have any other questions or comments?
    Mr. Towns. Just a general question. Is there anything that 
we can do to assist this process as members of the U.S. 
Congress? Is there anything we can do?
    Mr. Argodale. Sir, I think what you are doing right now in 
terms of holding this hearing, the hearings on the pay, the 
quarterly updates to the staff, the collaboration with the 
committee staff and the GAO, those things need to continue to 
shed the proper light and perspective on the issues.
    I think in addition to some of the issues that have been 
brought up in the GAO reviews and audits with respect to pay 
and travel, we also may want to take a look at where we are 
with some of these automated solutions in terms of DTS and 
DIMHRS to ensure that we are adding the proper functionality, 
that we are going to get the benefits that we need from the 
investments, and that the capabilities will be there to meet an 
Army that is an expeditionary joint type of Army as opposed to 
an Army in a garrison.
    So I think we need to look at those types of things and 
continue to quarterly updates, the hearings and keep the focus 
and the interest on these types of issues. Because as Secretary 
Harvey has said, he expects perfection when it comes to paying 
soldiers. As I talk to soldiers and their commanders, they 
really only want two things when it comes to pay. They want to 
be paid the right amount and be paid on time. It is very 
important that this body, the Congress, and that my colleagues 
back at the Department, the GAO, we all keep that focus in 
mind, paying soldiers the correct amount and paying them on 
time.
    Mr. Towns. Right.
    Yes, sir?
    Mr. Kutz. Yes, I agree 100 percent. I think that you should 
not walk away after today and be done with this. I think that 
this is something that in a collaborative way working together, 
certainly we would be part of that, and the folks at the table, 
and this subcommittee and the full committee, because we all 
want the same thing. We want to see the soldiers taken care of. 
We want this to no longer be a real source of frustration for 
them and their families going forward. I think what you are 
doing today is the right thing.
    Mr. Towns. Any other comments?
    Mr. Shine. Sir, I would just say that I think what the 
subcommittee and the full committee have done has put a laser 
focus on this issue. I think as a result we are now seeing 
better pay for our service men and women, and that is really 
what it is all about. We thank you for your participation.
    Mr. Towns. Thank you.
    I yield back, Mr. Chairman. Thank you very much.
    Mr. Platts. Thank you, Mr. Towns.
    There are two ongoing, as the Secretary referenced, keeping 
kind of the focus here with GAO on DIMHRS, with the 
subcommittee review ongoing as well as on the business systems 
modernization project or program that we have asked, and GAO is 
working on, to continue the focus here, and on a broader sense 
with DIMHRS.
    I apologize. I have votes in the Committee on Education I 
am going to run off to. I do want to say two things, one to our 
soldiers here, our men in uniform here past and present, Mr. 
Towns your past service. I have not worn the uniform.
    Mr. Towns. Thank you. [Laughter.]
    Mr. Platts. I say openly and regularly, I have not ever 
worn the uniform, and for those who are today and those who 
have in the past, I know but for your service, I would not be 
sitting here as a kid from York given the privilege to serve in 
national office. It is because of those who have worn the 
uniform in the past and those today that we are the Nation of 
opportunity that we are, and it has allowed me this opportunity 
to serve in a civilian capacity. I think that all of you have 
set the example for all of us fellow citizens in how we need to 
serve, whether that is as an elected official or just as 
citizens in our communities. I certainly will do my best to 
live up to the standard that each of you have set for us fellow 
citizens.
    Specific to this issue, I want to thank each of you and 
your staffs because Mr. Shine your comment that a laser-focus, 
I think that is from everybody, is that you really have taken 
the challenges here and the issues that have come forward very 
seriously and as issues are brought to your attention, you and 
your staff have done your utmost to respond to them and to fix 
whatever the problem is and learn from the past and go forward. 
As you said, the bottom line is we all are seeking to work 
together, that when courageous fellow citizens are willing to 
go into harm's way for us, that we are doing right by them and 
their families.
    We have made great strides in the right direction. We do 
have work to do and we will continue to look forward to 
partnering with each of you and your organizations in making 
sure we eventually get to that perfection that Secretary Harvey 
is demanding, and rightfully so.
    Again, thanks for your testimony and your time today and 
your patience while we got our votes in over on the floor. We 
will keep the record open for 2 weeks for any additional 
information based on the questions or just from the comments, 
and again look forward to continuing our work with you.
    This hearing stands adjourned.
    [Whereupon, at 4:10 p.m. the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.051
    
    [GRAPHIC] [TIFF OMITTED] T1297.052
    
                                 <all>

</pre></body></html>
